                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: Al1030019                                                                       Page 1 of 1



                 A PII appeared to have submitted a proposaf asking for funding to do work he had recently
          completed and published. 3 We contacted the PI who explained the ongoing nature of the project and
          admitted to the vagueness of the proposal with respect to the status of the proposed activities. He
          withdrew the proposal and demonstrated an understanding of the impropriety of requesting funds for
          work already completed.

                    Accordingly, this case is closed.




NSF 010 Form 2 (11/02)
